   March 12, 2004




Financial Management
Early Payment of Invoices by the
Defense Finance and Accounting
Service Columbus
(D-2004-058)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ACO                   Administrative Contracting Officer
CFR                   Code of Federal Regulations
DFAS                  Defense Finance and Accounting Service
FMR                   Financial Management Regulations
MOCAS                 Mechanization of Contract Administration Services
OMB                   Office of Management and Budget
U.S.C.                United States Code
          Office of the Inspector General of the Department of Defense
Report No. D-2004-058                                                     March 12, 2004
   (Project No. D2003FJ-0062)

           Early Payment of Invoices by the Defense Finance and
                     Accounting Service Columbus

                                Executive Summary

Who Should Read This Report and Why? Civil service and uniformed personnel
responsible for processing contractor payments in accordance with the Prompt Payment
Act should read this report. The report discusses paying contractors on time, and the
issues associated with making payments prematurely.

Background. This audit was conducted in response to allegations to the Defense Hotline
that the Defense Finance and Accounting Service Columbus was not paying invoices in
accordance with the Prompt Payment Act. The complaint also alleged that Lockheed
Martin, Northrop Grumman, and Raytheon were given preferential treatment in the form
of early payment of their invoices because of their size and influence. According to the
Defense Finance and Accounting Service Columbus, the Contract Pay Product Line
payments in FY 2001 were $87 billion.

Results. There was insufficient evidence to substantiate the allegation that the Defense
Finance and Accounting Service Columbus made early payments directly resulting from
contractor-provided Hot Lists or gave preferential treatment to the three contractors
named in the allegation. However, from January 2002 through January 2003, the
Defense Finance and Accounting Service Columbus regularly paid invoices from the
three contractors in the Hotline allegation, as well as other DoD contractors, earlier than
allowed by the Prompt Payment Act. The Defense Finance and Accounting Service
Columbus paid 108 invoices totaling $300 million from the three Hotline contractors, and
an additional 6,691 invoices totaling $1.3 billion to other DoD contractors, more than
7 days prior to the due date. Because the Defense Finance and Accounting Service
Columbus did not effectively adhere to the cash management requirements of the Prompt
Payment Act there was a potential cost to the U.S. Treasury of about $1.5 million in lost
interest.

To improve cash management, the Defense Finance and Accounting Service Columbus
needed to establish procedures to prevent the invoices it manually processes from being
paid before the Prompt Payment Act allows them to be paid. (See the Finding section of
the report for the detailed recommendations.)

Management Comments and Audit Response. The Director, Commercial Pay
Services, concurred with the report recommendations. She indicated that it will not be
possible to program the Mechanization of Contract Administration Services System to
bypass only specific edits, while adhering to others, until the system is redesigned. She
indicated that additional manual processes would be implemented to ensure that force-
thru payments are proper, and waivers of cash management are properly authorized. The
Director also stated that the Defense Finance and Accounting Service Columbus will
instruct the Defense Enterprise Computing Center to process invoices for which funds are
due to be cancelled within 10 days of year-end. She revised policy and programs to
prevent early release of payment without supervisory approval and documentation, and
she revised the management control program for entitlements to include monthly reviews
of force-thru invoices for validity and compliance with policy. The Director’s comments
regarding the redesign of the payment system were partially responsive. We believe that
until the system is redesigned, the added manual controls will help prevent unnecessary
force-thru payments, and ensure that cash management waivers are properly authorized
and approved. However, the Director’s comments did not specifically identify any
interim procedures that would ensure that force-thru invoices are held until at least 7 days
prior to the payment due date, and not paid early. Additionally, a monthly review of cash
management waivers for appropriateness may not detect early payments that are made
without the use of a waiver. We request that the Director, Commercial Pay Services,
provide additional comments by April 12, 2004. See the Finding section for a summary
of the management comments and the Management Comments section for the complete
text of those comments.




                                             ii
Table of Contents

Executive Summary                              i

Background                                    1

Objectives                                    3

Finding
     Early Payment of Invoices                4

Appendixes
     A. Scope and Methodology                 14
         Management Control Program Review    15
     B. Report Distribution                   17

Management Comments
     Defense Finance and Accounting Service   19
Background
    On October 29, 2002, the Defense Hotline received a complaint that the Defense
    Finance and Accounting Service (DFAS) Columbus was not paying invoices in
    accordance with the Prompt Payment Act. The complaint alleged DFAS
    Columbus made payments to Lockheed Martin, Northrop Grumman, and
    Raytheon earlier than allowable under the Prompt Payment Act. Also, the
    complainant alleged payments were made early to the three contractors because of
    their size and their political influence.

    Prompt Payment Act. The Prompt Payment Act of 1998, section 3903, title 31,
    United States Code (31 U.S.C. 3903), requires a payment 30 days after an invoice
    is received, or by the payment date established in the contract. The Act requires
    agencies to effectively manage invoices, and allows an agency to make payment
    up to 7 days prior to the required payment date, or earlier, as determined by the
    agency on a case-by-case basis. If an invoice is determined to be improper, and is
    returned to the contractor after 7 days, the period of time before payment is due is
    reduced by the additional days held by the agency.

    Office of Management and Budget (OMB) Guidance. As required by the
    Prompt Payment Act, OMB provides implementing regulations in title 5, Code of
    Federal Regulations (CFR) Section 1315 (2002). The OMB guidance excludes all
    contract financing payments from the cash management requirement. Contract
    financing includes progress payments, performance based payments, and interim
    commercial financing.

    DFAS Columbus and MOCAS. According to DFAS Columbus records, its
    Contract Pay Product Line made payments to contractors totaling $87 billion in
    FY 2001. DFAS Columbus uses the Mechanization of Contract Administration
    Services (MOCAS) system, an integrated system used to support post-award
    contract administration. In addition to contract administration services, MOCAS
    is designed to provide financial, inventory, funding, and payment information to
    its various users.

    Major Defense Contractors. DoD procurement records show that Lockheed
    Martin, Northrop Grumman, and Raytheon were the first, third, and fourth largest
    DoD contractors in sales to DoD in FY 2002. In FY 2002, the three contractors
    were awarded prime contracts collectively valued at about $32.7 billion. Major
    programs developed by these contractors include the C-5 Galaxy, the
    F-16 Fighter, the B-2 Spirit, and the Hellfire, Tomahawk, and Patriot missiles.

    Hot Lists. DFAS termed the spreadsheets it received from certain contractors
    “hot lists” if the spreadsheets contained invoices the contractors expected to be
    paid by a certain date. These spreadsheets could contain information such as the
    contract number, invoice number, shipment number, and payment due date.
    According to DFAS managers and customer service personnel, the Hot Lists were
    designed to allow vendors to notify DFAS personnel if there appeared to be
    invoices that were getting close to the payment due date that were still not ready
    for payment. Subsequent to the hotline allegation, DFAS Columbus changed the
    term “Hot List” to “Invoice Inquiry List.”


                                         1
           DFAS Columbus Cash Management of Invoices. DFAS Columbus personnel
           stated that MOCAS is designed to hold all cash managed invoices ready for
           payment until the twenty-third day after the receipt of the invoices. On the
           twenty-third day, MOCAS will release the invoice from suspension for payment.
           According to DFAS Columbus, there are ways to bypass the normal MOCAS
           systemic payment controls, and generate an early release of the cash-managed
           invoices. Two of the more common ways to cause an invoice to be paid early are
           to use the “force-thru” function in MOCAS, or to simply manually release the
           invoice from suspension in MOCAS.

                    Force-Thru Function. According to DFAS systems personnel, MOCAS
           is programmed to reject some invoices because they do not appear to meet all the
           criteria necessary for proper availability and use of funds. DFAS personnel
           recognize situations when these invoices could be rejected, and can manually
           entitle them using the force-thru function to prevent the rejection. However,
           when invoices are entitled in this fashion, the invoices bypass normal
           programmed-in edits and will be released from cash management (paid) as soon
           as the invoices have been “pre-validated.”1

           The force-thru function is a part of DFAS Columbus policy and should be used to
           process a valid invoice when the standard MOCAS payment process will reject
           the invoice for payment. For example, when there is insufficient unliquidated
           contract financing to pay an invoice because other invoices pending disbursement
           have already liquidated the contract financing, DFAS personnel must use the
           force-thru code in MOCAS to accurately process the payment. Other situations
           could also generate a force-thru transaction such as payment instructions provided
           by a contracting officer that link contract items to specific appropriations or
           advise that contract financing not be used to pay the invoice. These two
           situations differ from the standard MOCAS payment process and require manual
           intervention. Approval by a Division Chief is required on all force-thru
           transactions, and comments must be entered to explain why the payment must be
           forced through. An example of a force-thru comment would be “Invoice not
           subject to liquidation per Administrative Contracting Officer (ACO).” According
           to DFAS Desk Procedure 401, the force-thru function has been in place
           since 1996 or earlier.

                   Manual Release. A manual release is another method for making an
           early payment. According to DFAS personnel, there are several DFAS
           employees who have the ability to release an invoice that is ready for payment
           before the twenty-third day. DFAS Desk Procedure number 101 states that all
           requests for early releases of correctly suspended payments should be in writing,
           well documented, and signed by the Commander of the requesting activity, or
           their designee. The procedures require the contractor relations specialist to
           inform all contractors to go through their ACO for early release requests of
           properly suspended payments. A completed form DFAS-CO-FM 103, “Early
           Release Form,” is used and must be received by the invoice control supervisor
           before an invoice is released from cash management.


1
    The pre-validation process is a legal requirement and ensures that funds are available to pay the invoice.
    We did not audit any portion of the prevalidation process.



                                                        2
Objectives
    The objective of the audit was to determine whether DFAS Columbus was
    making contract payments in accordance with applicable disbursement policy.
    Specifically, we determined whether DFAS Columbus was paying invoices in
    compliance with the cash management requirements of the Prompt Payment Act.
    See Appendix A for a discussion of the scope and methodology and our review of
    the management control program.




                                       3
            Early Payment of Invoices
            There was insufficient evidence to substantiate the allegation that the
            Defense Finance and Accounting Service Columbus made early payments
            directly resulting from contractor-provided Hot Lists, or gave preferential
            treatment to three contractors. However, from January 2002 through
            January 2003, the Defense Finance and Accounting Service Columbus
            regularly paid invoices from the three contractors in the Hotline
            allegation, and other DoD contractors, earlier than allowed by the Prompt
            Payment Act. The Defense Finance and Accounting Service Columbus
            paid 108 judgmentally selected invoices totaling $300 million from the
            three Hotline contractors, and an additional 6,691 invoices totaling
            $1.3 billion to the three Hotline and other DoD contractors, more than 7
            days prior to the due date. In the majority of cases, MOCAS released the
            funds before the twenty-third day because the invoices had to be entered
            using the force-thru function and bypassed the edits that would have held
            the funds in suspense for 23 days. Additional early payments resulted
            from DFAS use of a program to release canceling funds earlier than
            necessary; manual early release of payments; and various other reasons,
            such as data entry errors. As a result, the Defense Finance and
            Accounting Service Columbus did not effectively adhere to the cash
            management requirements of the Prompt Payment Act, and the early
            disbursements resulted in potential lost interest to the U.S. Treasury of
            about $1.5 million.


DoD Prompt Payment Act Policy
     The DoD Financial Management Regulation (FMR), Volume 10, chapter 7,
     “Prompt Payment Act,” February 1996, provides specific guidance to disbursing
     offices for complying with the Prompt Payment Act. The FMR directs that
     payments should be made in a timely manner (neither early nor late) and requires
     cash management of invoices.

     The policy requires that payments be scheduled as close as possible to, but not
     later than, the discount or payment due date. The DFAS Site Director, the head of
     a disbursing office, or their designee has the authority to waive the cash
     management requirement. However, the FMR requires that early payment be the
     exception rather than the rule.


Evidence of Hot Lists and Preferential Treatment
     There was insufficient evidence to substantiate the allegation that early payments
     were the result of contractor-provided Hot Lists, or that preferential treatment was
     given to specific contractors based on their size or political influence.

     Hot Lists. DFAS Columbus did not retain specific Hot Lists related to the
     payments to contractors named in the hotline complaint. DFAS Columbus also

                                          4
    did not publish any written policy on the use of Hot Lists to facilitate invoice
    payments. However, MOCAS records included some evidence for four sample
    invoices indicating that DFAS may have given them special attention. For
    example, the words “Hot Hot Hot,” “High Dollar Expedite” or similar wording
    were written on cover sheets for these invoices. Nevertheless, because a specific
    Hot List was unavailable, we were not able to link the four payments to a specific
    hot list.

    Subsequent to the hotline allegations and as a result of a DFAS Internal Review
    audit, DFAS Columbus renamed the term “Hot List” to “Invoice Inquiry List.”
    DFAS Internal Review recommended the change in terminology to avoid
    confusion about the purpose of the contractor lists. Invoice inquiry lists are also
    submitted by other large DoD contractors such as Boeing and General Dynamics.

    Preferential Treatment. There was no direct evidence that DFAS Columbus
    personnel gave preferential treatment to the three contractor invoices over those
    from other contractors.

    To test for preferential treatment, we compared early payment data for the three
    contractors named in the allegation to other contractors that received early
    payments from DFAS Columbus. We also compared the average days to pay
    contract financing payments for the three Hotline contractors versus other DoD
    Contractors.

    We compared invoice payment dates of the three contractors named in the Hotline
    complaint to three other large DoD contractors (Boeing, TRW, and General
    Dynamics) for the same time period. The data showed that the average payment
    date for all cash-managed invoices for each contractor was 24 days, and early
    payment of invoices from these contractors ranged from 4 to 9 days. Similarly,
    DFAS Columbus made payments to Lockheed Martin, Northrop Grumman, and
    Raytheon ranging from 6 to 9 days early. Based on this analysis, there was no
    conclusive evidence that preferential treatment was given to the three contractors
    listed in the Hotline complaint over other companies that were similar in size and
    work.

    In addition to comparing invoice payment dates of similar size contractors, we
    reviewed all contract financing payments of those contractors from
    January 1, 2002, through January 31, 2003, using contract payment data in
    MOCAS. Financing payments are not subject to cash management and require
    payment much sooner than the 30 days required for cash managed invoices. The
    average payment time was 10 days after receipt of invoices regardless of the
    contractor. Based on this analysis, there was no measurable indication that
    Lockheed Martin, Northrop Grumman, and Raytheon received preferential
    treatment for contract financing payments.


Payments Made Early
    Although there was no clear evidence of preferential treatment for the contractors
    identified in the Hotline allegation, those contractors were paid early.


                                         5
           DFAS Columbus paid high-dollar invoices for Lockheed Martin, Northrop
           Grumman, Raytheon and other DoD contractors earlier than the window for
           allowable payment directed by the Prompt Payment Act, which is 7 days prior to
           the due date.

           Judgmental Sample of Hotline Contractor Invoices. To test for early
           payments, we judgmentally sampled 231 invoices from Lockheed Martin,
           Northrop Grumman, and Raytheon valued at about $2.2 billion that appeared to
           be paid early. The data were provided by DFAS Columbus. The invoices
           comprised about 69 percent of the total invoice amounts of all invoices that
           appeared early for these three contractors from January 1, 2002, through
           January 31, 2003.

           Of the 231 invoices judgmentally selected, DFAS paid 108 invoices valued at
           about $1.5 billion earlier than was required. DFAS disbursed $300 million for
           these invoices.2 DFAS Columbus paid the remaining 123 sample invoices in
           accordance with the Prompt Payment Act.

           Based on the results from the sample of the three contractors mentioned in the
           Hotline complaint, we examined additional contractor payments by judgmentally
           selecting 386 invoices valued at $1,746.8 million with disbursements of
           $426.7 million. These invoices were selected from all cash managed invoices
           from January 1, 2002, through January 31, 2003, that had been paid using the
           force-thru function.

           Of the 386 invoices selected, DFAS paid 266 invoices valued at $1,475.2 million
           with disbursements of $359.4 million earlier than allowable under the Prompt
           Payment Act.

           Other Contractors Paid Early. In addition to the results of our judgmental
           samples, DFAS Columbus provided data that showed an additional 6,425 invoices
           had been forced-thru early for payment. Those invoices were valued at
           $1,474.7 million and DFAS disbursed $929.1 million of that amount early.

           In total, from January 2002 through January 2003, DFAS Columbus paid
           108 judgmentally selected invoices totaling $300 million from the three Hotline
           contractors, and an additional 6,691 invoices totaling $1.3 billion to the three
           Hotline and other DoD contractors, more than 7 days prior to the due date.

           Table 1 displays this same information in a different way. Table 1 total
           disbursements are rounded. The table shows a summary of the early payments
           identified for Lockheed Martin, Raytheon, Northrop Grumman, and the remaining
           DoD contractors in MOCAS.




2
    The invoice amount is higher than the disbursed amount because DFAS had already disbursed portions of
    the invoice for contract financing payments.



                                                     6
                       Table 1. Summary of Early Payments
                             Number of            Invoice            Disbursed
                               Early             Amounts              Amount
         Contractor          Payments            (millions)          (millions)
    Lockheed Martin                  747               $837.3               $263.0

    Raytheon                       1,091               $351.6               $196.5

    Northrop Grumman                 207               $921.5               $124.4

    Other Contractors              4,754             $2,378.7             $1,008.2
    Total Early                    6,799             $4,489.1            $1,592.0*

    * Rounded Amount

Processing Early Payments
    DoD contractors were paid early for several reasons. Sixty-two of the 108 sample
    early payments to the three Hotline contractors and 6,691 other contractor
    payments were paid early because DFAS Columbus performed a manual force-
    thru of the invoice. The manual force-thru resulted in about $1.5 billion of the
    $1.6 billion in early payments. DFAS Columbus paid the remaining 46 sample
    invoices early because of MOCAS system processes that allow early release of
    invoices due to canceling appropriations, manual override of system controls, and
    for other, as yet, unexplained reasons. See Table 2 for a breakdown of the cause
    for the early payments. Table 2 total disbursements are rounded.

                            Table 2. Causes of Early Payments
                                     Number           Invoice        Disbursed
                                        of            Amount          Amount
                    Cause            Invoices        (millions)      (millions)

            Force-Thru                       6,753     $3,950.1          $1,519.2

            Systems release                     4             $2.1           $0.7

            Manual Release with
            inadequate support                  5             $7.7           $3.3

            Inadequate
            explanation provided               30        $524.1             $66.1

            Other                               7             $4.6           $2.9

            Total                            6,799     $4,488.6         $1,592.0*

            * Rounded Amount



                                         7
Force Thru Payments. As shown in the table, there were at least 6,753 invoices
with disbursements totaling $1.5 billion that were paid early using the force-thru
function in MOCAS.

MOCAS was designed to perform an accounting adjustment to “recoup” funds
that have already been paid to contractors through contract financing, such as
progress payments, when a delivery is received. However, in some instances
MOCAS attempts to recoup certain funds to pay an invoice that entitlement
personnel determine should not be recouped. In these instances, the entitlement
clerk processes a “force-thru” of the invoice and obtains the required supervisory
approval as discussed in the background of this report.

The use of the force-thru function moves an invoice outside of the normal cash
management edits in MOCAS and, therefore, the force-thru invoices were not
queued for cash-management, and proceeded directly to disbursing after pre-
validation. DFAS Columbus needed to establish controls to ensure that invoices
subject to the Prompt Payment Act, that were paid using the force-thru function,
were not paid earlier than allowable by the Prompt Payment Act.

Of the 6,753 force-thru invoices that DFAS Columbus paid early (see Table 2),
we identified 62 through our judgmental sample of 231 invoices from the Hotline
contractors, an additional 266 through our other judgmental samples of data on
other large DoD contractors, and the remaining 6,425 early force-thru invoices
from data provided by DFAS Columbus that we reviewed and considered to
reliably represent early force-thru invoices that were processed by DFAS
Columbus personnel.

Table 3 shows a breakdown of the force-thru invoices paid early by DFAS
Columbus. Table 3 total disbursements are rounded.

                    Table 3. Breakdown of Early Force Thru
                                  Number          Invoice       Disbursed
                                     of           Amount         Amount
         Identified Through       Invoices       (millions)     (millions)

        Hotline Judgmental
        Sample                             62      $1,000.3           $230.7

        Other Judgmental
        Samples                           266      $1,475.2           $359.4

        DFAS provided data               6,425     $1,474.7           $929.1

        Total                            6,753     $3,950.1        $1,519.2*

        * Rounded Amount




                                     8
The force-thru function in MOCAS that bypasses the cash management function
has been available in MOCAS for many years. We discussed the problem of
early payments with DFAS Columbus systems representatives during the course
of the audit. The systems representatives indicated that although the force-thru
function may result in early payments to contractors, there was no systemic
weakness in MOCAS because the system was performing as intended.

        On September 16, 2003, and subsequent to our audit exit meeting, DFAS
Columbus issued a memorandum titled “Preparation of Payment Review
Checklist and Proper Use of Force-Thru Code,” which cautioned that the use of
the force-thru should be minimized and carefully scrutinized. This memorandum
is a positive step toward raising employee awareness of the cash management
issue associated with using the force-thru function, but does not preclude the need
for further cash management improvements. DFAS Columbus management
needs to address the systematic early payment of force-thru invoices.
Specifically, MOCAS should not be programmed to automatically allow
contractor payments to bypass controls that prevent payment before the twenty-
third day, and DFAS Columbus management must ensure compliance with the
Prompt Payment Act.

MOCAS Systems Release. We identified four early payments that were made
possible by DFAS Columbus programming MOCAS to prematurely release
invoices for payment if the funding appropriations are due to be canceled at year-
end.

The DoD FMR Volume 10, Chapter 7, “Prompt Payment Act,” states that when
the payment due date falls after the appropriation cancellation date, payments are
exempt from early payment rules and may be paid prior to the cancellation of the
appropriation. DFAS is provided a list of the funds that will cancel at the end of
the fiscal year and runs a program on September 1 that will release all invoices
from cash management as soon as the invoice has been entitled and pre-validated.
DFAS Columbus paid 12 of our sample items early as a result of their canceling
funds policy. However, 4 of the 12 invoices were released from cash
management when the payment due date would have occurred before the
cancellation of the appropriations. This policy results in early payments and is
not an effective use of DoD funds.

DFAS Columbus management stated that additional processing time is needed to
process invoices paid with canceling funds, so that there is sufficient time to
correct potential payment errors. This policy is based on the notion that payment
errors are more routine than out of the ordinary. We believe that releasing
payment for invoices with canceling funds up to thirty days early is unnecessary
and a shorter time period allows adequate opportunities to correct errors.

Manual Release of Payments. For five invoices that were paid early, DFAS
Columbus personnel manually released the payments early without following
DFAS procedures. The Prompt Payment Act allows for early payment on a case-
by-case basis. DFAS regulations implement this exemption by requiring an Early
Release Form to be filled out and approved by the supervisor. The Early Release


                                     9
Form is to be used cautiously, in cases such as financial hardship of the
contractor. The standard procedure is for the Agency or contractor to contact
DFAS customer service and fill out the early release form with the Administrative
Contracting Officer’s signature. In five instances, the Early Release Form was
completed by a DFAS employee with no apparent supervisory review or adequate
explanation as to the reason for the release.

Inadequate Explanation. For 30 of the 108 sample invoices from the three
hotline contractors, MOCAS records did not contain, and DFAS Columbus was
unable to provide, an adequate explanation of why the payment was made early.
Records indicated that the 30 invoices were paid early without proper cause.
DFAS Columbus assigned two employees to research the 30 invoices. After the
additional research, DFAS Columbus was not able to provide any explanation as
to why the payments were made early.

We asked whether these invoices were included on contractor hot lists. However,
DFAS Columbus personnel said they did not maintain hot lists for these invoices
and stated that they destroy contractor hot lists and invoice inquiry lists shortly
after they receive them. DFAS Columbus was able to provide a contractor
representative for two of the three contractors who provided additional
information about the invoices. Specifically, for the 11 invoices represented,
8 had been provided on a hot list, although the name, hot list, was not used.
There was no indication on the hot lists that the contractors were requesting early
payment. Additionally, both of these contractor representatives stated that the
invoice information was not a request for early payment or special treatment. The
contractors stated that the information was provided to ensure that DFAS
Columbus had received the invoices and that the MOCAS information for them
was accurate. We were unable to determine whether the remaining 19 invoices
were on a contractor hotlist.

During the audit, MOCAS systems personnel stated that MOCAS does not
automatically release invoices so they can be paid early. According to DFAS
Columbus records, as of June 23, 2003, there were 22 employees who had the
necessary access to manually release payments from cash management. DFAS
Desk Procedure 301 states that this type of release should only occur when the
employee receives a completed Early Release Form, such as from an
administrative contracting officer. However, according to DFAS systems
personnel, there is no edit or control in MOCAS to prevent an early release of an
invoice for payment if a completed Early Release Form is not obtained.

MOCAS data showed that 26 of the 30 invoices did not appear to be MOCAS
system releases because the payment due date appeared to be properly calculated.
For the remaining 4 invoices, the MOCAS information was not readily available
for use in determining whether the early payment was a result of a manual or
system release from cash management.

Other. DFAS Columbus paid seven sample invoices early for various other
reasons. For example, various data entry errors caused six of the seven early
payments that we categorized as “other” in Table 2.




                                    10
Loss of Monetary Funds
    The Prompt Payment Act, as implemented in 5 C.F.R. Section 1315.4 “Prompt
    Payment Standards and Notices to Vendors,” was legislated to ensure that
    contract payments would be made timely and as close to the payment due date as
    possible. The C.F.R. policy states that Federal agencies have the authority to
    make payments early but that this authority should be used cautiously while
    weighing the benefits of good stewardship inherent in effective cash management
    practices.

    Because DFAS Columbus did not effectively adhere to the cash management
    requirements of the Prompt Payment Act, the early disbursements potentially cost
    the U.S. Treasury about $1.5 million in interest. Our sample results indicate that
    DFAS Columbus paid 6,799 invoices, totaling $4.5 billion with a disbursement
    value of about $1.6 billion, earlier than they should have been paid. The invoices
    were paid outside the MOCAS internal control that stages invoices and prevents
    early payments to ensure compliance with the Prompt Payment Act. Based on the
    Treasury Current Value of Funds Rates in place from January 2002 through
    January 2003 when the $1.6 billion in early payments were made, a potential loss
    of Federal funds of $1.5 million occurred. We calculated the $1.5 million loss by
    taking the disbursement dollar value of the invoice and multiplied the result by
    the current Treasury rate for the payment period. We divided by 360 days
    multiplied by the number of days the invoice was paid early. DFAS needs to
    improve procedures to prevent unnecessary and preventable costs in the future.

    Cash Management of DoD Funds. The DoD FMR discourages early payments
    and requires that payments be made on time, not early and not late. DoD policy
    on early payments is designed to keep funds in Treasury longer and may reduce
    interest expenses on associated borrowed amounts needed to finance DoD
    payments.

    A policy that effectively provides disbursements to DoD contractors on time, not
    early and not late, would prevent unnecessary interest costs to the U.S. Treasury
    and improve DoD compliance with the cash management requirements of the
    Prompt Payment Act.

    In most instances of early payments, DFAS Columbus processed the invoices for
    payment by using the force-thru function. This function has become a normal,
    accepted business practice at DFAS Columbus and that results in poor cash
    management of DoD funds.




                                        11
Recommendations, Management Comments, and Audit
Response
    We recommend that the Director, Defense Finance and Accounting Service
    Columbus, Contract Pay Services:

           1. Revise the Mechanization of Contract Administration Services
    processing system edits related to the force-thru function to ensure invoices
    subject to the Prompt Payment Act provisions are held until 7 days prior to
    the payment due date.

    Management Comments. The Director, Commercial Pay Services, concurred
    with the recommendation, stating that manual processes will be temporarily
    instituted until the MOCAS rehost is implemented. Upon implementation of the
    MOCAS rehost, a system change request will be submitted to ensure that all
    invoices are properly subjected to cash management. The Director stated that
    invoice reviews will include an evaluation of the use of a force-thru. The
    Director stated that the Contract Pay Operations Entitlement Management Control
    Program is being revised to include a monthly review of force-thru invoices. She
    also stated that the use of the Form 64, Force-thru Approval/Checklist, in
    conjunction with the EDM Notelog to explain why the payment must be a force-
    thru, will be strictly enforced.

    Audit Response. The Director’s comments were partially responsive. The
    change to MOCAS should correct the cash management issue related to early
    payment of invoices that are forced-thru. In addition, the interim procedures will
    ensure that force-thru invoices are necessary and proper. Although the Director’s
    comments indicated that a sample would be used to ensure compliance with
    policy and procedures, the comments did not specifically address how the interim
    processes will prevent early payment of invoices that are properly forced-thru but
    require cash management controls. The majority of the force-thru invoices that
    we examined were justified and valid. However, until the MOCAS rehost is
    implemented, additional manual procedures are needed to ensure that the valid
    force-thru invoices are held until at least 7 days prior to the payment due date and
    not paid early. Such procedures could include revising the entitlement process to
    require entitlement personnel to delay processing invoices that are required to be
    forced-thru until approximately 7 days prior to the due date. We request that the
    Director reconsider her position and provide additional comments to the final
    report that specifically describe the manual controls that will ensure that force-
    thru invoices are not paid early.

            2. Revise the current payment program for funds due to be canceled,
    so that invoices that have payment due dates within 10 working days of the
    fiscal year-end are not paid early.

    Management Comments. The Director, Commercial Pay Services, concurred
    with the recommendation, stating that DFAS Columbus has instructed the
    Defense Enterprise Computing Center to process the cash management program
    approximately 10 working days prior to fiscal year end.



                                         12
      3. Establish controls to prevent the early release of a payment
without supervisory approval and adequate supporting documentation.

Management Comments. The Director, Commercial Pay Services, concurred
with the recommendation, stating that DFAS Columbus reissued the “Waiver
Criteria for Early Release of Payments in Cash Management” policy in
conjunction with a letter from the Director of Customer Support directing
adherence to the procedural requirement for a cash management waiver. The
Director also stated that the Contract Pay Operations Management Control
Program is being revised to include a monthly review of invoices processed using
a waiver of cash management to ensure its proper use.

Audit Response. The Director’s comments were partially responsive. Increasing
awareness and using monthly reviews will ensure that proper steps are taken to
process waivers of cash management rules. However, the Director’s comments
did not address the early release of payments when no evidence of a waiver is
present in MOCAS. We identified 30 early payments where MOCAS records
were unavailable to support the reason for making the early payment. For these
payments, we could not conclude whether circumstances justifying a waiver of
cash management rules existed. Procedures were needed to prevent and detect
whether early payments that are made without a waiver of the rules of cash
management are justified. The procedures should require reviews of all early
payments made by entitlement personnel that are not supported by waivers to
cash management rules. These types of reviews will prevent DFAS from making
early payments that lack the documentation that supports bypassing cash
management controls, and will detect early payments that are made without
adequate support. We request that the Director reconsider her position and
provide additional comments to the final report.




                                   13
Appendix A. Scope and Methodology
   We obtained all MOCAS invoice payment data for Lockheed Martin, Northrop
   Grumman, Raytheon, TRW, General Dynamic, and Boeing from January 1, 2002,
   through January 31, 2003. We also obtained all MOCAS contract financing
   payments from January 1, 2002, through January 31, 2003. We obtained all cash-
   managed force-thru payments that were purportedly paid in less than 23 days after
   receipt of the invoices and had a field which indicated whether the payments were
   accompanied by MOCAS errors. For invoice payments coded as service-type
   (SER) invoices, we verified that MOCAS contained the proper receipt date and
   made adjustments if necessary. For the invoices with error codes, we adjusted the
   age of the invoice based on the days held, if necessary. All of the MOCAS data
   included contractor shipment number, invoice number, receipt and payment dates,
   and invoice amount. DFAS Columbus provided the disbursed amount by
   Accounting Classification Reference Number.

   We arranged the MOCAS invoice records provided by DFAS Columbus for six
   large contractors into separate databases. We performed queries on the Lockheed
   Martin, Northrop Grumman, and Raytheon databases to judgmentally select our
   sample, based on invoice dollar value and age of payment. We selected 244
   invoices, and determined that 13 invoices were not applicable to the cash
   management requirements and excluded these invoices from our results. To
   perform additional force-thru testing, we also selected 48 invoices from TRW,
   General Dynamics, and Boeing that were coded as force-thru. We determined
   that three invoices were not applicable to the cash management requirements, and
   excluded these invoices from our results.

   We performed tests to verify the force-thru database for all DoD contractors
   provided by DFAS Columbus and excluded invoices that we had previously
   reviewed. Specifically, we judgmentally selected 224 service-type invoices and
   97 invoices with error codes from the database of force-thru invoices to verify
   that they were paid early and were properly coded as a force-thru. We included
   the remaining force-thru invoices that DFAS Columbus provided that were not
   service-type or error-coded as early payments.

   Calculating Interest Savings. We performed interest savings calculations by
   multiplying the disbursement dollar value of the invoice by the current Treasury
   rate for the payment period and dividing that amount by 360 days. Then we
   multiplied that amount by the number of days the invoices were paid before the
   twenty-third day.

   We performed this audit from February 2003 through December 2003 in
   accordance with generally accepted government auditing standards.

   Use of Computer-Processed Data. We relied on computer-processed data from
   the Mechanization of Contract Administration System (MOCAS) to determine the
   universe of contractor invoices, the receipt and payment dates of the invoices, and
   the payment mechanisms used to forward the contractor invoices to the DFAS
   Columbus disbursing office. Although we did not perform a formal reliability
   assessment of the computer-processed data, we determined that the information in


                                       14
    MOCAS relating to the contractor invoice receipt date and payment dates, and the
    mechanisms used by entitlement personnel to process payments, generally agreed
    with the scanned images of the invoices. We did not find a significant number of
    data entry or other errors that precluded use of the computer-processed data to
    meet the audit objectives, or that changed the conclusions in this report.

    Use of Technical Assistance. We received assistance from the Quantitative
    Methods Division in the Office of the Inspector General of the Department of
    Defense. Specifically, Quantitative Methods Division helped us determine
    judgmental sample sizes, made suggestions to verify whether other DoD
    contractors besides the three Hotline contractors had early payments that were
    generated by a force-thru in MOCAS, and assisted in calculating potential lost
    interest to the U.S. Treasury from the DFAS Columbus early payment of invoices.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DFAS Contract Pay Product Line management controls for
    processing contractor invoices, and determined whether these controls were
    adequate to prevent early payments and preferential treatment to certain
    contractors. Specifically, we reviewed DFAS Contract Pay Product Line
    management controls for cash-managed invoices that are paid using the force-thru
    function and other manual processes that could result in early payment to
    contractors. We also reviewed management’s self-evaluation applicable to those
    controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the DFAS Contract Pay Product Line as defined by
    DoD Instruction 5010.40. DFAS Contract Pay Product Line management
    controls for cash-managed force-thru payments and other manual payment
    processes were not adequate to ensure payments were paid in accordance with the
    Prompt Payment Act. Recommendations 1, 2, and 3, if implemented, will
    improve the DFAS Contract Pay Product Line compliance with the Prompt
    Payment Act, and will prevent unnecessary and preventable interest costs to the
    U.S. Treasury. We calculated these costs to be $1.5 million for the time period
    from January 1, 2002, through January 31, 2003. A copy of the report will be
    provided to the senior official responsible for management controls within the
    DFAS Contract Pay Product Line.



                                       15
    Adequacy of Management’s Self-Evaluation. DFAS Contract Pay Product
    Line officials identified operations support and entitlement operations as
    assessable units. However, prevention of early payments was not directly
    addressed in either of the assessable unit self-evaluations. As part of its
    assessable unit self-evaluation, DFAS Columbus should include a control test to
    determine whether early payments are being prevented.


Prior Coverage
    No prior coverage has been conducted on early payments as prohibited by the
    Prompt Payment Act during the last 5 years.




                                       16
Appendix B. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
 Director, Commercial Pay Services

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform



                                          17
Defense Finance and Accounting
Service Comments




                     19
20
21
22
Team Members
The Defense Financial Auditing Service Directorate, Office of the Deputy
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
James L. Kornides
Stuart D. Dunnett
Mark Starinsky
Lisa S. Sherck
Peter G. Bliley
Lusk F. Penn
